                             Department of the Interior
                             Office of Inspector General




             AUDIT REPORT



               U.S. Fish and Wildlife Service
    Federal Assistance Program Grants Awarded to the
     Commonwealth of the Northern Mariana Islands,
       Department of Lands and Natural Resources,
    From October 1, 2002, Through September 30, 2004




Report No. R-GR-FWS-0023-2005             April 2007
              United States Department of the Interior
                      OFFICE OF INSPECTOR GENERAL
                           12030 Sunrise Valley Drive, Suite 230
                                  Reston, Virginia 20191

                                                                                   April 3, 2007

                                   AUDIT REPORT
Memorandum

To:           Director
              U.S. Fish and Wildlife Service

From:         Christina M. Bruner
              Director of External Audits

Subject:      Audit on the U.S. Fish and Wildlife Service Federal Assistance Program
              Grants Awarded to the Commonwealth of the Northern Mariana Islands,
              Department of Lands and Natural Resources, From October 1, 2002, Through
              September 30, 2004 (No. R-GR-FWS-0023-2005)

        This report presents the results of our audit of costs incurred by the Commonwealth of
the Northern Mariana Islands (Commonwealth), Department of Lands and Natural Resources
(Department), under the U.S. Fish and Wildlife Service (FWS). FWS provided the grants to the
Commonwealth under the Federal Assistance Program for State Wildlife and Sport Fish
Restoration (Federal Assistance Program). The audit included total reported outlays of
approximately $2.45 million on 17 FWS grants that were open during FYs 2003 and 2004 (see
Appendix 1). The audit also covered Department compliance with applicable laws, regulations,
and FWS guidelines, including those related to the collection and use of Commonwealth hunting
and fishing permit revenues and the reporting of program income.

        We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. However, we questioned $129,083 in costs (federal share) and
developed findings regarding inadequate accounting of program income and revenues received
for hunting and fishing permits. We also found that the Department did not 1) ensure project
level accounting was maintained for one wildlife research grant; 2) apply indirect cost rates to
Federal Assistance Program grants correctly and consistently; or 3) adequately account for
equipment purchased with Federal Assistance Program funds during FYs 2003 and 2004.

       We provided a draft of the report to FWS and the Department for response. The
Department’s response consisted of a joint response from Department officials and officials from
the Department’s Division of Fish and Wildlife (Division). This report includes a summary of
Department, Division, and FWS Region 1 responses after each recommendation, as well as our
comments on the responses. We list the status of the recommendations in Appendix 3.
        Please provide us with your written response to the recommendations included in this
report by July 2, 2007. Your response should include information on actions taken or planned,
targeted completion dates, and titles of officials responsible for implementation.

       If you have any questions regarding this report, please contact Mr. Chris Krasowski,
Federal Assistance Coordinator, or me at 703-487-5345.

cc:   Regional Director, Region 1, U.S. Fish and Wildlife Service




                                               2
                                                Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (the Acts)1 established the Federal Assistance Program for State Wildlife and Sport Fish
Restoration. Under the Federal Assistance Program, FWS provides grants to states to restore,
conserve, manage, and enhance their sport fish and wildlife resources. The Acts and federal
regulations contain provisions and principles on eligible costs and allow the FWS to reimburse
any state up to 75 percent of the eligible costs incurred under the grants. For certain government
entities, including the Commonwealth, the Acts allow for full reimbursement of eligible costs
incurred under the grants. The Acts also require that state hunting and fishing license revenues
be used only for the administration of the State’s fish and game agency. Finally, federal
regulations and FWS guidance require states to account for any income they earn using grant
funds.

Objectives

Our audit objectives were to determine whether the Department:

               claimed the costs incurred under Federal Assistance Program grants in accordance
               with the Acts and related regulations, FWS guidelines, and the grant agreements;

               used state hunting and fishing license revenues solely for fish and wildlife program
               activities; and

               reported and used program income in accordance with federal regulations.

Scope
Audit work included claims totaling approximately $2.45 million on 17 FWS grants that were
open during FYs 2003 and 2004 (see Appendix 1). We performed our audit at Department
headquarters in Saipan, Commonwealth of the Northern Mariana Islands (Commonwealth), and
visited the Department’s Division of Fish and Wildlife (Division) office and four boat launch
facilities (see Appendix 2). We performed this audit to supplement, not replace, the audits
required by the Single Audit Act of 1984, as amended, and the Office of Management and
Budget Circular A-133.




1
    As amended, 16 U.S.C. §§ 669 and 777, respectively.

                                                          3
Methodology
We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. We tested records and conducted other auditing
procedures as necessary under the circumstances. Our tests and records included:

       examining the evidence that supports selected expenditures charged to the grants by the
       Department;

       reviewing transactions related to purchases, direct costs, drawdowns of reimbursements,
       in-kind contributions, and program income;

       interviewing Department employees to ensure that personnel costs charged to the grants
       were supportable;

       conducting site visits to review equipment and other property; and

       determining whether the Department used hunting and fishing permit revenues solely for
       sport fish and wildlife program purposes.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions in these systems for testing. We did not evaluate the economy, efficiency, or
effectiveness of Department operations nor project the results of tests to the total population of
recorded transactions.

Prior Audit Coverage
On January 22, 2003, we issued “Advisory Report on Costs Claimed by the Commonwealth of
Northern Mariana Islands, Department of Lands and Natural Resources, under Federal Aid
Grants from the U.S. Fish and Wildlife Service from October 1, 1996 Through September 30,
1998” (Report No. 2003-E-0013). We followed up on all recommendations in the report and
determined that the Department of Interior, Office of the Assistant Secretary for Policy,
Management and Budget considered them resolved and implemented. In addition, the
Commonwealth issued its 2003 Single Audit Report for the year ended September 30, 2003, on
July 6, 2005. We found that all relevant recommendations were considered resolved by FWS.




                                                 4
                                     Results of Audit

Audit Summary
We found that the Department complied, in general, with selected grant agreement provisions
and requirements of the Acts, regulations, and FWS guidance. However, we discovered several
conditions that resulted in the findings listed below, including $129,083 in questioned costs. We
discuss the findings in more detail in the Findings and Recommendations Section.

       Questioned Costs. We questioned $129,083 (federal share) in expended grant funds due
       to insufficient source documentation.

       Inadequate Accounting of Program Income. The Department may have underreported
       program income related to operating and maintaining the Smiling Cove Marina due to
       inadequate records on vessels occupying space at the marina.

       Required Project Level Accounting Not Performed. Grant-required project-level
       accounting was not maintained on one wildlife research grant.

       Incorrect Indirect Cost Rates. The Department incorrectly and inconsistently applied
       indirect cost rates to its Federal Assistance Program grants as a result of inadequate
       management and accounting controls.

       Inadequate Equipment Management. Required physical inventories of equipment
       purchased with Federal Assistance Program funds were not performed.

       Inadequate Accounting of Hunting and Fishing Permit Revenue. The Department
       did not adequately account for revenues received for hunting and fishing permits issued,
       resulting in a potential diversion of permit revenue.

Findings and Recommendations
A.     Questioned Costs — $129,083

       We sampled 112 transactions valued at $595,388 on 14 Federal Assistance Program
       grants to determine if costs were reasonable, necessary, and adequately supported by
       source accounting data. As a result of our review, we questioned $129,083 of costs
       claimed.

       OMB Circular A-87 (recently codified in the Code of Federal Regulations as 2 C.F.R. §
       225), attachment A, section C lists factors for determining whether costs are allowable.
       To be allowable under federal awards, costs must be necessary and reasonable, allocable
       and authorized, and adequately documented [emphasis added]. Title 43 C.F.R. §
       12.60(a)(2) requires each state to have a financial management system in place that
       permits the tracing of funds at a level adequate to establish compliance with grant

                                                5
provisions. Title 50 C.F.R. § 80.15(a) requires all costs to be supported by source
documents or other records.

Neither the Department’s Division of Fish and Wildlife (Division) nor the
Commonwealth’s Department of Finance and Accounting (Finance) could locate or
provide sufficient vendor source documentation to support $129,083 of charged costs,
which we questioned (see Appendix 1). The affected grants are listed below:

                                             Questioned Costs
                 Grant Number                 (Unsupported)
                  F-2-R-5                        $44,359.96
                  F-2-R-6                        $22,559.60
                  F-5-D-3                         $7,782.83
                  F-6-B-4                         $2,500.00
                  F-6-B-5                           $717.00
                  F-6-B-6                         $2,689.26
                  FW-1-C-20                      $19,748.54
                  FW-1-C-21                       $1,643.74
                  FW-1-C-22                       $8,820.00
                  W-2-R-5                        $16,143.04
                  W-2-R-6                         $2,118.92
                                                $129,082.89

We questioned the full amounts of the charges because the Commonwealth is fully
reimbursed for all grant expenditures.

Recommendations

We recommend that FWS:

1.     resolve the unsupported costs of $129,083,

2.     require the Division to develop policies and procedures to maintain supporting
       documentation for expenditures incurred under Federal Assistance Program
       grants, and

3.     require the Division to develop procedures to reconcile their supporting
       documentation with the documentation maintained by the Commonwealth
       (Finance).

Department Response

Division officials concurred with the audit recommendations and requested that the
detailed information on specific costs in question be provided to the Department to aid in
resolving the questioned costs. Department officials also requested that the responsibility



                                         6
     placed in recommendation two on the Department to develop procedures be assigned to
     the Division of Fish and Wildlife.

     FWS Response

     FWS Region 1 management concurred with the recommendations and found the
     Department requests reasonable. They also stated that they would work with the
     Department in developing a corrective action plan to address the recommendations.

     OIG Comments

     In response to the Division’s request for more detailed information, we added a table
     identifying the questioned costs by grant. We will also provide additional detailed
     information directly to the Division identifying the transaction codes associated with the
     questioned costs. In response to the Department’s request for changing the responsible
     entity in recommendation two, we reworded the recommendation and created a third
     recommendation to ensure the Division’s and the Commonwealth’s information on grant
     expenditures are reconciled.

     While FWS management concurs with the recommendations, additional information is
     needed in the corrective action plan, including verification that FWS officials reviewed
     and approved of actions taken or planned by the Commonwealth, the targeted completion
     dates, and titles of officials responsible for implementing actions taken or planned to
     resolve and implement the recommendations.

B.   Inadequate Accounting of Program Income

     Regulations permit grantees to earn program income as a result of grant-supported
     activities but require that they account for such income. During FYs 2003 and 2004, the
     Department reported program income of $110,158 from grant F-4-B-18 and $122,492
     from grant F-4-B-19 for berthing and mooring fees paid by vessel owners for occupying
     space in the Smiling Cove Marina (Marina). We were unable to confirm these totals
     because the Department did not ensure that all berthing and mooring fee revenues
     generated from operations at the Marina were adequately accounted for or reported as
     program income for grants F-4-B-18 and F-4-B-19.

     According to 43 C.F.R. § 12.65, program income is gross income received by a grantee
     that is directly generated by a grant supported activity. Program income should be
     deducted from total grant costs to determine net costs on which the grantor’s share will
     be based, or with approval from the awarding agency, it should be added to project funds
     to advance eligible program objectives. Further, 50 C.F.R. § 80.19 requires states to
     maintain current and complete financial, property, and procurement records, in
     accordance with requirements contained in the Federal Assistance Manual and OMB
     Circular A-102, “Grants and Cooperative Agreements with State and Local
     Governments.” Finally, 43 C.F.R. § 12.82, Retention Requirements for Records, states
     that records must be retained for three years from the last action for that grant.


                                              7
Vessel owners submitted payments for occupying space in the Marina to Finance.
Revenues reported under the grant were based only on receipts recorded in Finance’s
financial reporting system. The system, however, did not contain records of all payments
received because the Department did not maintain adequate records to ensure integrity of
data input into the system. For example, the Department did not maintain monthly tenant
records to track which vessel occupied which berthing space or temporary mooring site.

Further, the Department did not reconcile billed amounts with the revenues received
because not all payments included information on the vessel, slip number, or month for
which payment was made. Finally, the Department established unofficial “old accounts”
totaling greater than $50,000 for delinquent mooring payments without establishing
official accounts receivables for the delinquent amounts.

According to Department personnel, they were unaware they needed to maintain records
of the tenants and which vessel occupied which berthing slip or temporary mooring site
for each month during the year. In addition, the Department did not have written internal
accounting policies and procedures on how to account for program income generated by
Marina operations. Finally, Marina personnel told us that the Marina office was
destroyed in a fire, along with all of its files, in January 2004. Due to the lack of
adequate records at the Marina, revenues and program income may be underreported.

Recommendations

We recommend that FWS require the Department to:

1.     maintain — for a minimum of 3 years after the end of the grant period — a
       monthly tenant listing of all vessels that are berthed or moored at the Marina and
       of all vacant slips, and to ensure that such data is adequately safeguarded in the
       event of a disaster;

2.     reconcile monthly Marina tenant listings with amounts billed to the revenues
       received and deposited with Finance, and use the reconciled list to collect unpaid
       billings;

3.     establish separate accounts receivables for each delinquent account on the official
       records of Finance; and

4.     develop written policies and procedures to guide Marina personnel in adequately
       accounting for receipts generated by Marina operations.

Department Response

The Division stated that it did not concur with the recommendations, citing the
destruction of records and equipment in a fire that destroyed the Smiling Cove Marina in
January 2004 as the cause for the lack of documentation available to the OIG. They also
stated that they do currently reconcile the monthly Marina tenant listings with amounts


                                        8
billed to the revenues received and deposited with Finance. However, they stated that
they will further improve their current fiscal tracking system to include information on
when vessel owners make payments on delinquent accounts.

FWS Response

FWS Region 1 management concurred with the recommendations and stated that the
Department’s statement regarding the fire destruction is true. However, they consider the
Department’s “ability to ensure the availability of documents and information system
capabilities following natural or man-made disasters or emergencies to be absent,” and
asked that the issue be addressed in the recommendations. They also stated that they
would work with the Department to develop a corrective action plan to address the
recommendations.

OIG Comments

We acknowledge the fact that a fire destroyed the records maintained from the FYs
reviewed during the audit period, and added this information to the finding. However,
we note that the Marina should have procedures in place to ensure they do not lose
critical information in the event of a disaster such as a fire. The Government
Accountability Office Federal Information Systems Controls Audit Manual, Chapter 3.6
discusses service continuity and identifies various steps that an organization can take to
prevent or minimize the potential damage to and/or interruption of automated operations.
These steps include routinely duplicating and backing up data files, computer programs,
and critical documents with offsite storage. Per the FWS request, we added additional
language to recommendation one addressing the need for maintaining data even in the
event of a disaster.

Division officials stated that they currently reconcile monthly Marina listings of amounts
billed to the revenues received and deposited with Finance and provided an example of
their “Tenant Payment Breakdown” spreadsheet. We note that the data in the spreadsheet
provided covers the period from October to December 2006, but does not contain records
from the audit period.

Further information is needed in the corrective action plan, including:

       procedures currently in place that Department officials believe address the
       recommendations,

       specific information on planned actions to improve the current fiscal tracking
       system,

       targeted completion dates and titles of officials responsible for actions taken or
       planned, and




                                         9
            verification that FWS officials reviewed and approved of actions taken or planned
            and the time frames and individual(s) responsible for implementation.

C.   Required Project Level Accounting Not Performed

     The Department did not account for costs at the project level on one grant that required
     that level of accounting. Wildlife Research Grant W-2-R-5 for $281,152 was comprised
     of six separate project components, including swiftlet surveys, endemic and migratory
     bird surveys, bat research, introduced animal management, technical assistance, and
     conservation area management plans. Each project had its own budget. Instead of
     reporting costs for each project to allow for comparison of actual and budgeted costs on
     each project within the grant, the Department and Finance accounted for and reported
     costs in total at the grant level (under account number I3611A).

     The requirements of Title 43 C.F.R. § 12.70(c) apply to each project in grant W-2-R-5
     because the grant agreement required project-level, rather than grant-level, accounting.
     For grants and projects exceeding $100,000, the regulation requires a grantee to obtain
     approval of the awarding agency for cumulative transfers among the separately budgeted
     projects. This requirement applies when the transfers exceed 10 percent of the total
     approved budget.

     We identified no monetary impact; however, the FWS has no assurance that the funds
     were spent in accordance with the approved grant budget or that the Department was in
     compliance with the limitations on the transfer of funds among each project within the
     grant.

     Although the grant agreement clearly requires project level accounting, Department
     personnel stated they were unaware of the requirement to establish separate project
     accounts for each project component.

     Recommendations

     We recommend that FWS require the Department to:

     1.     account for and report grant costs at the project level for the Wildlife Research
            Grant and

     2.     ensure that the project level grant costs reconcile with the amounts recorded in
            account number I3611A.

     Department Response

     Division officials concurred with the recommendations and stated that they will prepare
     documentation to report costs for each project under grant W-2-R-5 and submit the
     revised report no later than June 20, 2007. Officials also stated that they will issue an
     administrative policy providing guidelines to ensure that each Federal Assistance
     Program grant requiring project level accounting is tracked and reconciled with Finance

                                             10
     and Project Principle Investigator records. They also indicated that project level
     accounting will be included in the annual accomplishment reports.

     FWS Response

     FWS Region 1 management concurred with the recommendations and stated that they
     would review the records for the wildlife research grant upon receipt, review the
     submitted administrative policy, and work with the Department in developing a
     corrective action plan to address the recommendations.

     OIG Comments

     FWS management concurred with the recommendations, and the Division indicated it has
     taken steps to ensure that the accounting is corrected for grant W-2-R-5 and project level
     accounting is performed when required on future grants. However, additional
     information is needed in the corrective action plan documenting the corrective actions
     taken or planned, targeted completion dates, and titles of officials responsible for
     implementing the actions. The plan should also contain verification from the FWS that
     they reviewed and approved of the information provided and actions taken or planned.

D.   Incorrect Indirect Cost Rates

     Finance and the Department incorrectly and inconsistently applied indirect cost rates to
     grants issued under the Federal Assistance Program during FYs 2003 and 2004. We
     found that at least 7 out of 17 grants opened in 2003 and 2004 were incorrectly charged.
     Finance and the Department charged:

            an incorrect indirect cost rate,

            the correct rate to an incorrect grant base cost, and

            an incorrect rate to an incorrect base cost.

     Additionally, neither Finance nor the Department can demonstrate compliance with the
     requirement to limit the indirect costs charged for state central services to Federal
     Assistance Program grants, as required under federal regulations.

     Title 50 C.F.R. § 80.15(d) limits the indirect costs that states can charge to Federal
     Assistance Program grants. It states that administrative costs in the form of overhead or
     indirect costs for state central services (outside of the state fish and wildlife agency) must
     follow an approved cost allocation plan and shall not exceed 3 percent of the annual
     apportionment of Federal Assistance funding to that state in any single fiscal year. In
     addition, OMB Circular A-87 (recently codified as 2 C.F.R. § 225), attachment E, section
     C.4(b) states that when restrictions to indirect cost reimbursements exist, it may be
     necessary to develop a special “restricted” rate for the affected award. A restricted rate



                                               11
requires elimination of those costs for which the law prohibits reimbursement from the
indirect cost pool.

Finance and Department personnel who compute and account for indirect cost rates to
applicable grant expenditures have not received adequate training on the charging of
indirect costs. Additionally, neither the Department nor Finance has developed
accounting policies or procedures to determine if the 3 percent limitation is being
exceeded. They have also not determined the applicable grant expenditures that indirect
costs may be charged against.

Recommendations

We recommend that FWS require the Department to:

1.     request, along with Finance, technical assistance from the National Business
       Center Indirect Cost Service to ensure personnel understand which expenditures
       are subject to indirect costs and the 3 percent limitation;

2.     ensure future indirect cost rates applied to Federal Assistance Program grants
       limit the costs of central services to 3 percent of the annual apportionments of the
       Federal Assistance Program for State Wildlife and Sport Fish Restoration;

3.     prepare accounting policies and procedures to demonstrate and monitor its
       compliance with 50 C.F.R. § 80.15(d); and

4.     determine, in consultation with FWS, whether it is necessary to develop a
       restricted rate, applicable only to Federal Assistance Program grants, that
       incorporates the 3 percent limitation imposed by 50 C.F.R. § 80.15(d).

Department Response

Division officials stated that they acknowledge the 3 percent limitation imposed by 50
C.F.R. § 80.15(d). They indicated that they are collaborating with Finance on a
Memorandum of Agreement to ensure that all applicable Federal Assistance Program
grant funds are subject to the limitation. Department officials also stated that they agree
to comply with the 3 percent limitation, but that they believe a restricted rate is
unnecessary.

FWS Response

FWS Region 1 management concurred with the recommendations. They also stated that
they would work with the Department in developing a corrective action plan to address
the recommendations.




                                         12
     OIG Comments

     FWS concurred with the recommendations and the Division indicated it has taken steps
     to ensure that they are in compliance with the 3 percent limitation. However, while
     Department officials believe that a restricted rate is unnecessary, they should perform and
     submit to FWS calculations that demonstrate a restricted rate is unnecessary. Additional
     information is also needed in the corrective action plan, including targeted completion
     dates and titles of officials responsible for implementing actions taken or planned.
     Finally, the plan should include verification from the FWS that they reviewed and
     approved of the information provided and actions taken or planned.

E.   Inadequate Equipment Management

     The Department did not follow practices required to safeguard their equipment. For
     example, the Procurement and Supply Division (Procurement) did not prepare property
     inventories or perform physical checks of property for FY2003. While Procurement did
     prepare and distribute applicable 2004 property inventories to the Department, the
     Department did not perform the required physical inventory. Further, Procurement did
     not perform the required random audits in FYs 2003 or 2004. We therefore concluded
     that the Department had inadequate internal management and accounting controls over
     equipment purchased with Federal Assistance Program funds.

     Section III of the Commonwealth’s Property Management Policies and Procedures
     Manual requires Procurement to conduct an annual inventory of property held by each
     accountable person, as recorded in a master inventory control record. Section IV requires
     that Procurement perform an annual physical inventory and update its written master
     inventory to record property that is missing, damaged, or is no longer needed, and to
     identify property not on the inventory control record. The Manual further requires
     Procurement to perform random audits of property to validate the integrity of the
     property control process. In addition, 50 C.F.R. § 80.19 requires the state to maintain
     current and complete financial, property, and procurement records.
      Procurement personnel told us the property inventories were not performed because they
     were understaffed and Department personnel told us they were unclear on their
     responsibility to physically check property.

     Recommendations

     We recommend that FWS require the Department to:

     1.     conduct a physical inventory of its personal property immediately,

     2.     report inventory results to Procurement, and

     3.     request that Procurement perform an audit of property to ensure that the inventory
            control process is financially sound.



                                             13
     Department Response

     Division officials stated that personnel are currently conducting a physical inventory of
     all assets assigned to the Division. Officials also provided a copy of a January 10, 2007
     policy that they stated they issued to ensure annual internal physical inventories are
     performed, internal inventory control records are updated, and that copies of updated
     records are transmitted to Procurement. They also provided a copy of a January 10, 2007
     memorandum that they indicated was sent to Procurement. The memorandum requested
     that Procurement perform an audit of property to ensure that the inventory control
     process is sound.

     FWS Response

     FWS Region 1 management concurred with the recommendations and stated that they
     would consider the results of the administrative policy provided by the Division. They
     stated that they consider recommendation three addressed by the memorandum sent to
     Procurement. They also stated that they would work with the Department in developing
     a corrective action plan to address the recommendations.

     OIG Comments

     FWS Region 1 management concurred with the recommendations. Based on the
     documentation provided by the Division, the FWS Region 1 response and verbal
     confirmation from an official from FWS headquarters that management approves of the
     actions taken, we consider recommendation E.3 resolved and implemented. Additionally,
     Division officials indicated they took steps to correct the inventory issues by conducting
     a physical inventory, issuing administrative policy to personnel, and issuing a request to
     Procurement that it perform an audit of property. However, additional information is
     needed in the corrective action plan verifying that FWS reviewed and approved of actions
     taken for recommendations E.1 and E.2. The corrective action plan should also include
     the targeted completion dates and titles of officials responsible for implementing actions
     taken or planned to resolve and implement the recommendations.

F.   Inadequate Accounting of Hunting and Fishing Permit Revenue

     The Department did not adequately account for revenues received for hunting and fishing
     permits issued during FYs 2003 and 2004. The Department did not annually reconcile
     the revenues from the permits it issued to the revenues deposited into the financial
     accounts designated for permit revenue. Further, Department personnel inappropriately
     pre-signed permits and did not adequately secure them in their offices.

     Title 50 C.F.R. § 80.4 prohibits revenues from license fees paid by hunters and fishermen
     from being diverted to purposes other than the administration of state fish and wildlife
     agencies. In addition, 50 C.F.R. § 80.19 requires the state to maintain current and
     complete financial, property, and procurement records in accordance with requirements
     contained in the Federal Assistance Manual and OMB Circular A-102. Finally,


                                             14
fundamental accounting controls include reconciliations of related data, such as permits
issued, to funds received.

Department personnel said that they were unaware of the need to reconcile the number of
permits issued and revenues received to the revenues received and deposited into permit
receipts accounts maintained by Finance.

The Department recorded permit revenues of $4,610 and $4,340 for FYs 2003 and 2004,
respectively. Finance recorded permit revenue deposits of $10,685 and $7,780 for FYs
2003 and 2004, respectively. The result is a total of $9,515 in permit revenues that were
not reconciled to the permits issued during FYs 2003 and 2004. Therefore, the
Department cannot ensure that permit revenues were not diverted for purposes other than
the administration of the fish and wildlife agency. Additionally, pre-signed and
unsecured permits create the potential for permits to be issued without collecting fees and
for the loss of documentation on the number of permits issued.

Recommendations

We recommend that FWS:

1.     require the Department to reconcile its permit receipts to the receipts tracked in
       the Finance accounts and determine whether license revenues have been diverted,

2.     prohibit the Department from pre-signing permits, and

3.     require the Department to secure the permits in a locked cabinet within their
       offices.

Department Response

Division officials provided a copy of a January 9, 2007 policy memorandum regarding
hunting and fishing licenses. They stated that the Division Enforcement Officer issued
the procedural guidelines, which include a requirement to reconcile on a monthly basis
the permit receipts to the payment receipts documented in the Finance accounts. The
procedural guidelines also included a prohibition against pre-signing permits and a
requirement to keep unsigned permits in a locked drawer.

FWS Response

FWS Region 1 management concurred with the recommendations, and stated that it
reviewed the policy provided by the Division. They believe the policy satisfies
recommendations two and three. They also stated that they would work with the
Department in developing a corrective action plan to address recommendation one.




                                        15
OIG Comments

The Division has taken steps to ensure that a monthly reconciliation of receipts is
performed in the future, pre-signed permits are prohibited, and permits are secured.
Based on the documentation provided by the Division, the FWS Region 1 response and
verbal confirmation from an official from FWS headquarters that management approves
of the actions taken, we consider recommendations F.2 and F.3 resolved and
implemented. However, additional information is needed in the corrective action plan
documenting reconciliation of past permits to determine whether license revenues have
been diverted and verifying that FWS reviewed and approved of actions taken. The
corrective action plan should also include the targeted completion dates and titles of
officials responsible for implementing actions taken or planned to resolve and implement
the remaining recommendation.




                                       16
                                                    Appendix 1

  COMMONWEALTH OF THE NORTHERN MARIANA ISLANDS
    DEPARTMENT OF LANDS AND NATURAL RESOURCES
      FINANCIAL SUMMARY OF REVIEW COVERAGE
    OCTOBER 1, 2002, THROUGH SEPTEMBER 30, 2004

                                            Questioned Costs
                Grant           Reported     (Unsupported)
 Grant No.     Amount            Outlays     (Federal Share)
F-4-B-17       $253,446           $94,687
FW-1-C-20       202,046           150,687        $19,748
F-6-B-4         490,115           489,187          2,500
W-2-R-5         281,152           269,122         16,143
FW-1-C-21       189,984           156,104          1,644
F-4-B-18        248,180           129,854
F-7-AE-5         87,265            25,610
F-2-R-5         393,834           294,403         44,360
F-7-AE-6         58,354            24,019
FW-1-C-22       202,499           160,552           8,820
F-6-B-6           8,545             8,533           2,689
F-4-B-19        256,678            55,565
F-7-AE-7         87,605            49,586
W-2-R-6         247,494           219,343          2,119
F-6-B-5         327,985             3,816            717
F-5-D-3         208,918            26,148          7,783
F-2-R-6         388,538           291,729         22,560
             $3,932,638        $2,448,945       $129,083




                          17
                                            Appendix 2

COMMONWEALTH OF THE NORTHERN MARIANA ISLANDS
  DEPARTMENT OF LANDS AND NATURAL RESOURCES
                 SITES VISITED

           Tanapag Beach Public Boat Ramp
                Smiling Cove Marina
               Fishing Base Boat Ramp
               Sugar Dock Boat Ramp




                        18
                                                                                   Appendix 3

      COMMONWEALTH OF THE NORTHERN MARIANA ISLANDS
        DEPARTMENT OF LAND AND NATURAL RESOURCES
       STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS


     Recommendations                    Status                        Action Required
A.1, A.2, A.3, B.1, B.2, B.3,   FWS management           Additional information is needed in the
B.4, C.1, C.2, D.1, D.2, D.3,   concurred with the       corrective action plan, including the
D.4, E.1, E.2, and F.1          recommendations, but     actions taken or planned to implement
                                additional information   the recommendations, targeted
                                is needed.               completion date(s), the title of
                                                         official(s) responsible for
                                                         implementation, and verification that
                                                         FWS officials reviewed and approved
                                                         of actions taken or planned by the
                                                         Department and Division. We will
                                                         refer recommendations not resolved
                                                         and/or implemented at the end of 90
                                                         days (after July 2, 2007) to the
                                                         Assistant Secretary for Policy,
                                                         Management and Budget for resolution
                                                         and/or tracking of implementation.

E.3, F.2, and F.3               Resolved and             No further action is required.
                                implemented.




                                                19
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
              allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 5341 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free               800-424-5081
                  Washington Metro Area           703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
